No. 21-219

 

 

In THE

Supreme Court of the Wnited States

CLEAR CHANNEL OutTDOOR, LLC,

Petitioner,
v.

HENRY J. RAYMOND, DIRECTOR,
DEPARTMENT OF FINANCE OF BALTIMORE CITY,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS OF MARYLAND

MOTION FOR LEAVE TO FILE AMICUS
CURIAE BRIEF AND BRIEF OF AMICUS
CURIAE OF OUT OF HOME ADVERTISING
ASSOCIATION OF AMERICA IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief contains
5,999 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 600 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 15, 2021.

C. ad,

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
